               Business Cases for Information Technology
                      Projects Need Improvement

                                     April 2005

                       Reference Number: 2005-20-074




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       April 29, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Business Cases for Information Technology
                                    Projects Need Improvement (Audit # 200420037)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      compliance with the Office of Management and Budget (OMB) and Clinger-Cohen Act
      of 19961 requirements to plan, manage, and control information technology (IT)
      investments. Twice yearly, the OMB requires agencies to complete an OMB
      Circular A-11 Exhibit 300, Capital Asset Plan and Business Case, for each major IT
      investment. These documents are essentially business cases used by agencies to
      request funds, monitor the progress of projects, and improve management decision
      making over expensive IT investments.
      In summary, the IRS prepares about 30 business cases each year. We reviewed the
      business cases prepared for Budget Years2 (BY) 2005 and 2006 for four IT projects.
      Two of the projects were under development and two were in operation.
      All four business cases we reviewed contained deficiencies, did not comply with the
      OMB and Clinger-Cohen Act requirements and, in some cases, did not comply with the
      IRS’ own Exhibit 300 Business Case Guide. As a result, we believe senior IRS
      executives and Department of the Treasury and OMB officials should not rely on the
      data in these business cases to manage and fund the projects. Inaccurate information
      in business cases can distort viable analysis and provide IRS executives with a false
      assessment of the actual progress and costs of projects. Senior IRS executives


      1
        Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
      16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
      44 U.S.C., 49 U.S.C., 50 U.S.C.).
      2
        “Budget Year” refers to a future fiscal year (October 1 – September 30) which is the subject of the budget planning
      process.
                                                         2

advised us they recognize the reporting problems and will make changes to the
BY 2007 submissions.
We found project costs were not reported accurately in three of the four business cases
we reviewed. One project omitted $38.5 million in direct labor costs in determining the
total amount spent on the project and also did not report required project-specific
security costs such as costs for system administrators and background checks.
For financial systems, the OMB recommends agencies consider the three best
alternatives when selecting vendors for IT products. In 1 of the business cases we
reviewed for a project expected to cost over $1 billion, only 1 viable alternative was
provided. Contractors were responsible for this procurement and did not provide the
IRS sufficient information for preparing the alternatives analysis.
We also found the Earned Value Management (EVM) data for the two projects under
development were incomplete, inaccurate, and outdated, making it difficult for senior
IRS executives and Department of the Treasury and OMB officials to measure and
assess the overall progress of IT projects. Budgeted costs were inaccurate, baseline
information changed from 1 year to the next, project teams could not provide supporting
documentation, and IT project costs were outdated. A problem identified in the software
used by the IRS also contributed to inaccuracies in the EVM sections of the business
cases.
Additionally, in-depth reviews required by the E-Government Act of 20023 to identify
smarter and more cost effective methods for delivering performance were not
documented for two projects already in operation. One of these IT projects requested
an increase in operational costs even though it continues to experience a significant
reduction in use.
The Capital Planning and Investment Control (CPIC) office did not always provide
adequate guidance to Project Managers. More significantly, Project Managers did not
ensure business cases were prepared accurately and in compliance with guidance
given by the OMB and IRS. Overall, we noted a general view by the Project Managers
involved that the sole purpose of the business case was to obtain funding for projects.
Insufficient effort was made to prepare accurate business cases which could be relied
upon to better manage IT projects as the Clinger-Cohen Act of 1996 intended.
To make business cases more reliable and useful, we recommended the Chief
Information Officer (CIO) hold Project Managers and the CPIC office accountable for
following existing guidance in computing costs for IT projects, ensure work performed
by contractors is adequately reviewed before acceptance, modify the Enterprise Life
Cycle (ELC)4 to require a comprehensive evaluation of all vendor proposals, and revise


3
  Pub. L. No. 107-347. The Act requires a review of IT systems to ensure effective and efficient delivery of
electronic services and processes. The business case is used as one way of reporting on E-Government progress.
4
  The ELC establishes a set of repeatable processes and a system of reviews, checkpoints, and milestones that reduce
the risks of system development and ensure alignment with the overall business strategy. All IRS and contractor
personnel involved in modernization efforts are required to follow the ELC.
                                           3

the Exhibit 300 Business Case Guide to require an assessment of three viable
alternatives for IT investments. Additionally, the CIO should hold IT Project Managers
accountable to ensure all sections of the business case are consistent, accurate, and
complete. For projects affected by the EVM software problem, we recommended the
CIO correct all software problems that lead to incorrect earned value calculations. For
operational systems, the CIO should ensure Project Managers document the results of
their E-Government reviews in their business cases.
Management’s Response: The IRS CIO agreed with all of our recommendations and
indicated some corrective actions have already been taken. The CIO designated
Project Managers as the accountable individuals for all data contained in their business
cases, designated appropriate persons to review work performed by contractors,
revised the ELC to require a comprehensive package evaluation and selection report on
all commercial off-the-shelf products that are considered for new IRS systems, and
modified the IRS Exhibit 300 Guide to require the three best viable alternatives be
presented in applicable business cases. Furthermore, the CPIC office will provide
training and guidance documents to Project Managers. To address inaccurate EVM
data in business cases, the IRS will work with the necessary parties to cause a
permanent change to the software used to report EVM data in the BY 2008 business
cases. To ensure accurate EVM data in BY 2007 business cases, the IRS will
implement a manual temporary solution. Lastly, the CIO will require operational Project
Managers to include, in their business cases, the results of E-Government reviews
performed on their projects.
The CIO disagreed with our conclusion that executives from the IRS, Department of the
Treasury, and the OMB should not rely upon data in the IRS’ business cases. In
addition, the CIO did not concur with the outcome measures reported in Appendix IV of
the report. Management’s complete response to the draft report is included as
Appendix VII.
Office of Audit Comment: Our conclusion that executives from the IRS, Department of
the Treasury, and the OMB should not rely upon data in the IRS’ business cases is
based on the multiple errors we found in the sampled business cases and the lack of
compliance with OMB requirements. The outcome measures claimed in the report are
based on errors and misstatements in the business cases that hinder the ability of
decision-makers to rely on these documents. The outcome measures are not based on
cost savings.




While management agreed with our recommendation to include the results of
E-Government reviews in their business cases, they stated that these reviews are not
required for projects that are scheduled for replacement by modernization projects. We
disagree with this position since the IRS’ modernization efforts are scheduled over
several years and we believe there could be many opportunities to improve the
efficiency of existing projects in the interim. We plan to conduct a follow-up review to
                                            4

determine the effectiveness of all of IRS management’s corrective actions and to
evaluate the accuracy of the business cases for the BY 2007 budget submission.
We will include this issue in our follow-up review and, accordingly, we do not intend to
elevate this matter to the Department of the Treasury.

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs) at 202-622-8510.
           Business Cases for Information Technology Projects Need Improvement




                                                  Table of Contents


Background ............................................................................................... Page 1
Procedures for Preparing Business Cases Have Improved,
but Managers Are Not Complying ............................................................. Page 3
Project Costs Were Not Reported Accurately ........................................... Page 4
         Recommendations 1 and 2: ...........................................................Page 7

Relevant Cost and Benefit Information Was Omitted in
Alternatives Analysis Reporting................................................................. Page 7
         Recommendations 3 and 4: ...........................................................Page 11

Progress on Development Projects Was Measured
Inaccurately............................................................................................... Page 11
         Recommendations 5 and 6: ...........................................................Page 16

Business Cases for Operational Projects Did Not
Demonstrate Results of an In-depth E-Government Review..................... Page 17
         Recommendation 7: .......................................................................Page 18

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 19
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Outcome Measures............................................................ Page 22
Appendix V – Summary of Business Case Deficiencies ........................... Page 25
Appendix VI – Description of Information Technology
Investments Selected for Review .............................................................. Page 27
Appendix VII – Management’s Response to the Draft Report ................... Page 28
        Business Cases for Information Technology Projects Need Improvement

                               The Clinger-Cohen Act of 19961 requires Federal
Background
                               Government agencies to focus on the results they achieve
                               through their information technology (IT) investments.
                               Agencies are required to put their technology investment
                               decisions in a true business context and analyze investments
                               for their return on investment.
                               In October 2000, the Senate Governmental Affairs
                               Committee stated the Clinger-Cohen Act was the result of
                               the Committee’s reviews of failed computer system
                               acquisitions, such as the Internal Revenue Service’s (IRS)
                               Tax Systems Modernization project. The Committee further
                               reported Federal Government agencies were not using sound
                               business procedures before investing in information
                               technology.
                               The Clinger-Cohen Act requires agencies to implement
                               processes and maintain information needed to help ensure
                               IT projects are completed at acceptable costs, are within
                               reasonable and expected time periods, and are contributing
                               to tangible, observable improvements in mission
                               performance. The Department of the Treasury has not yet
                               completed and formalized its capital planning process;
                               however, information is available to assist bureaus.
                               The Office of Management and Budget (OMB) published
                               Circular A-11, Preparation, Submission and Execution of
                               the Budget, to assist Federal Government agencies in
                               complying with the Clinger-Cohen Act. This detailed
                               guidance includes two key sections applicable to IT capital
                               planning. Section 300, Planning, Budgeting, Acquisition,
                               and Management of Capital Assets, provides guidance on
                               how business cases should be prepared. Section 53,
                               Information Technology and E-Government, provides
                               guidance on how to prepare an agency’s IT Investment
                               Portfolio.
                               Twice yearly, agencies must complete OMB
                               Circular A-11 Exhibit 300, Capital Asset Plan and Business
                               Case, for each major IT investment and submit it to the
                               OMB. The OMB reviews the initial submission and returns

                               1
                                Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of
                               5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C.,
                               22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
                               41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                Page 1
Business Cases for Information Technology Projects Need Improvement

                       it to the agency for revision and resubmission. Exhibit 300
                       is essentially the business case for a specific IT project. It is
                       used by the OMB to allocate funds for IT investments and
                       should also be used by agencies to manage their
                       investments. The business case must clearly demonstrate
                       past and projected costs of the project along with what the
                       agency achieved or expects to achieve with the investments.
                       In Budget Year2 (BY) 2004, the IRS prepared 30 business
                       cases.
                       We judgmentally selected four IT investment projects and
                       reviewed their business cases for BYs 2005 and 2006. Two
                       of the projects, the Custodial Accounting Project (CAP) and
                       the Integrated Financial System (IFS), were in the
                       development stage and two, the Integrated Submission and
                       Remittance Processing (ISRP) system and the Counsel
                       Automated Systems Environment (CASE), were
                       operational.3 See Appendix VI for an explanation of each of
                       these four IT investment projects.
                       We reviewed the business cases to determine if they were
                       accurate and in compliance with OMB requirements. We
                       focused on the following key sections of the business cases:
                           •    Summary of Spending table - A summary of
                                planned, actual, and expected costs for the life of the
                                project.
                           •    Alternatives Analysis - An analysis of alternatives to
                                the computer system under development.
                           •    Earned Value Management (EVM) - For
                                development projects, a comparison of planned cost
                                and schedule goals to actual cost and schedule
                                results to date.
                       This review was performed in the office of the
                       Modernization and Information Technology Services
                       organization at the IRS Headquarters offices in
                       Washington, D.C., and New Carrollton, Maryland, during
                       the period June through December 2004. The audit was
                       conducted in accordance with Government Auditing
                       Standards. Detailed information on our audit objective,

                       2
                         “Budget Year” refers to a future fiscal year (October 1 –
                       September 30) which is the subject of the budget planning process.
                       3
                         Projects in the operational stage are also called “steady state” projects.
                                                                                           Page 2
          Business Cases for Information Technology Projects Need Improvement

                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Management’s complete response to the draft report is
                                 included as Appendix VII.
                                 In early 2003, the IRS made a substantial effort to improve
Procedures for Preparing
                                 business cases after the OMB assigned failing scores to all
Business Cases Have Improved,
                                 but one of the IRS’ BY 2004 business cases. Specifically,
but Managers Are Not Complying
                                 the IRS:
                                 •   Prepared the Exhibit 300 Business Case Guide to
                                     provide detailed instructions for completing business
                                     cases.
                                 •   Required subject matter experts to review a specific part
                                     of each business case and provide feedback to the IT
                                     Project Manager.
                                 •   Required the Capital Planning and Investment Control
                                     (CPIC) office to perform an overall review of each
                                     business case and provide feedback to the IT Project
                                     Manager.
                                 •   Required the Project Manager for each IT investment to
                                     conduct a final overall review to ensure the business
                                     case is correct.
                                 However, these procedures are not operating effectively.
                                 IT Project Managers did not take ownership of their IT
                                 development projects and did not provide sufficient
                                 emphasis to ensure the business cases presented accurate
                                 information. Specifically, documentation did not exist to
                                 support important data on the business cases or, when we
                                 found documentation, it did not always support the
                                 information provided on the business cases. Several of the
                                 errors we identified could have been identified with a
                                 careful review of only the business case itself, without going
                                 to supporting documents. We noted several instances where
                                 IT Project Managers relied on contractors’ input without
                                 questioning the information presented.
                                 All four business cases for BYs 2005 and 2006 contained
                                 deficiencies and did not comply with either the
                                 Clinger-Cohen Act or OMB requirements and, in some
                                 cases, the IRS’ own Exhibit 300 Business Case Guide.
                                 Business case deficiencies are summarized in Appendix V.

                                                                                        Page 3
           Business Cases for Information Technology Projects Need Improvement

                                  We also noted a general view on the part of Project
                                  Managers and their staffs that the business cases were solely
                                  a budget document designed to obtain funding from the
                                  OMB. Insufficient attention was given to ensuring the
                                  accuracy of the information so the business cases could also
                                  be used to manage projects. For example, business cases
                                  should be used to ensure spending on IT projects will
                                  provide a return on investment equal to or better than
                                  alternate uses of funding. Business cases should also be
                                  used to identify projects that are performing poorly and
                                  those that no longer fulfill mission requirements.
                                  Additional emphasis is needed to improve the accuracy and
                                  completeness of the business cases. We anticipate that, by
                                  addressing the recommendations included in the following
                                  sections, the IRS will provide the needed emphasis.
                                  We have been assured by senior IRS executives that actions
                                  are being taken to improve IRS processes for developing
                                  business cases. The IRS expects these actions will
                                  significantly improve its BY 2007 submissions to the OMB.
                                  The Summary of Spending table presents a high-level
Project Costs Were Not Reported
                                  overview of budgeted, actual (to the extent these are
Accurately
                                  known), and expected costs for an entire project on a
                                  year-by-year basis. Errors in the Summary of Spending
                                  table hinder the ability of decision makers to rely on this
                                  information to allocate funds or to use the business case as a
                                  management tool.
                                  For BYs 2005 and 2006, the IRS inaccurately reported
                                  project costs in three of the four business cases. Multiple
                                  errors were reported in the Summary of Spending tables.
                                  Specifically, management and overhead costs were not
                                  allocated to IT projects, and IT Project Managers made
                                  errors in calculating security costs. In addition, the business
                                  case for the ISRP omitted direct labor costs and some
                                  hardware and software costs.




                                                                                          Page 4
Business Cases for Information Technology Projects Need Improvement

                       The IRS CPIC office did not allocate management and
                       overhead labor costs to development projects
                       IRS management and overhead labor costs of $79.4 million
                       were not allocated to IT development projects for BY 2005.
                       As a result, the costs for each IT development project were
                       understated. The IRS did not follow the OMB and its own
                       guidance which require such costs to be allocated among the
                       IT development projects.
                       Inaccurate security costs were reported for three
                       projects
                       Many IT projects rely on the hardware, software, and staff
                       support services that constitute the underlying infrastructure
                       security for IRS systems. Consequently, rather than trying
                       to determine precisely how much each system uses the
                       infrastructure security, IRS security specialists allocated
                       infrastructure security costs based on a percentage of IT
                       operating costs.
                       The IRS determined its security infrastructure costs were
                       $45.3 million at the time it prepared the BY 2005 business
                       cases, or 3.08 percent of total costs for each project. Each
                       project was to have this security percentage applied to its
                       total operating costs to produce a basic infrastructure
                       security cost. Project-specific security costs should be
                       added to the basic infrastructure security cost to calculate a
                       total project cost to report in the business case.
                       In reviewing the ISRP expenditures, we identified security
                       costs that were not included, such as security administrators
                       and background checks for contractors.
                       In addition, CAP project BY 2005 security costs were
                       overstated by $11.2 million. The CAP BY 2005
                       business case reported security costs would be
                       $17.9 million (29.5 percent) of total project costs of
                       $60.6 million. Based on available documentation, actual
                       security costs totaled $6.7 million (11 percent) of the total
                       project costs.
                       IFS project BY 2005 security costs were also reported
                       inaccurately. The business case reported security costs in
                       1 section as $7.18 million and in another section as
                       $4.14 million. IFS staff indicated they may have calculated
                       the infrastructure cost percentage against only some of the
                                                                               Page 5
Business Cases for Information Technology Projects Need Improvement

                       project costs. However, since the IRS relied on a contractor
                       and could not provide support for either calculation, we
                       could not identify where the actual error occurred.
                       The BY 2006 business cases also underreported security
                       costs for both the CAP and IFS. Following IRS guidance
                       described above, security costs should have been at least
                       3.08 percent of total project operating costs. However, the
                       CAP business case reported no security costs, and the IFS
                       business case reported only 1 percent ($217,000) of total
                       project costs.
                       ISRP system total project costs were understated
                       OMB guidance directs full life-cycle costs, including labor
                       costs, to be included in total project costs. The ISRP
                       business case did not properly report $38.5 million in IRS
                       labor costs in BY 2005. The total project cost is a
                       significant factor in evaluating a business case. The ISRP
                       business case disclosed the IRS labor costs as a separate line
                       item, but did not include them in the total project costs as
                       required by OMB guidance. The ISRP project team advised
                       us these costs were omitted because they misunderstood
                       guidance given to them.
                       In addition, the ISRP system BY 2006 business case did not
                       include $4.5 million related to system hardware and
                       software costs used by the ISRP system. The costs,
                       representing 32 percent of maintenance costs of the project,
                       were instead included in agency-wide infrastructure costs.
                       As a result, project costs were understated. Since the costs
                       were directly attributable to the ISRP system, they should
                       have been reported on the ISRP system business case as
                       required by the OMB.
                       Project management for all three projects was not aware of
                       applicable OMB and IRS guidelines for computing costs.
                       For both the CAP and IFS projects, management relied on
                       contractors to make key security calculations without
                       adequately monitoring and reviewing the contractors’ work.
                       IRS reviews of the business case information did not
                       identify obvious errors such as security costs that were
                       below the basic security cost allocation.




                                                                              Page 6
           Business Cases for Information Technology Projects Need Improvement

                                  Recommendations
                                  The Chief Information Officer (CIO) should:
                                  1. Hold Project Managers and the CPIC office accountable
                                     for following existing guidance in computing the costs
                                     of IT projects.
                                  Managements Response: The CIO has designated Project
                                  Managers in Business Systems Development (BSD) and
                                  Business Systems Modernization (BSM) offices as the
                                  individuals accountable for all data contained in their
                                  operational and developmental business cases. The CPIC
                                  office will provide training and guidance documents as
                                  appropriate.
                                  The CIO disagreed with our conclusion that executives from
                                  the IRS, Department of the Treasury, and the OMB should
                                  not rely upon data in the IRS’ business cases. In addition,
                                  the CIO did not concur with the outcome measures of
                                  $339 million reported in Appendix IV of the report. The
                                  premise that dollar savings could result from the findings is
                                  not accurate.
                                  Office of Audit Comment: Our conclusion that executives
                                  from the IRS, Department of the Treasury, and the OMB
                                  should not rely upon data in the IRS’ business cases is based
                                  on the multiple errors we found in the sampled business
                                  cases and the lack of compliance with OMB requirements.
                                  The outcome measures claimed in the report are based on
                                  errors and misstatements in the business cases that hinder
                                  the ability of decision-makers to rely on these documents.
                                  The outcome measures are not based on cost savings.
                                  2. Ensure work performed by contractors is adequately
                                     reviewed before acceptance.
                                  Managements Response: The Associate CIO, BSM, has
                                  taken corrective actions to address this recommendation.
                                  Work performed by contractors is reviewed by the assigned
                                  Integrated Project Team, Project Manager, Acquisitions
                                  Project Manager, and stakeholders who have the expertise to
                                  affirm the deliverable is accurate and complete.
                                  The Alternatives Analysis is a key component of the
Relevant Cost and Benefit
                                  business case. It provides estimated cost and benefit
Information Was Omitted in
                                  information on viable alternatives to assist management in
Alternatives Analysis Reporting
                                  determining the most effective approach for the project.
                                                                                        Page 7
Business Cases for Information Technology Projects Need Improvement

                       The Alternatives Analysis for the IFS and CAP projects did
                       not contain critical data for both BYs 2005 and 2006
                       reporting.
                       The IFS Alternatives Analysis did not compare viable
                       options
                       The IFS project business case did not present the three best
                       alternatives, as required by the OMB. For financial
                       systems, the OMB has stated agencies must use commercial
                       off-the-shelf (COTS) software from among a number of
                       predetermined vendors. For the IFS, the most viable
                       alternatives would have been COTS software products
                       described in OMB guidance. Only one of the alternatives
                       presented in the business case included a COTS software
                       product.
                       The other two alternatives presented in the business case
                       were a “do nothing” option of patching the current system
                       and a “build from scratch” option. Neither option was a
                       viable alternative. The IRS did not include cost data for
                       these options but merely stated costs would be
                       “astronomical” or “prohibitive.” The business case itself
                       stated these two alternatives were not viable. The IRS
                       estimates, over the project’s life cycle, IFS development
                       costs will be $531 million and total costs will be over
                       $1 billion.
                       Two obstacles precluded the full completion of the
                       Alternatives Analysis. First, the IRS did not have cost
                       information on the COTS software alternatives that were
                       considered for the IFS. The IRS delegated the COTS
                       software product selection to a contractor, the Computer
                       Sciences Corporation (CSC).4 The CSC was tasked with
                       issuing a request for vendor proposals, evaluating the
                       proposals, and selecting the best vendor package. However,
                       after making the selection, the CSC did not share detailed
                       cost information with the IFS project team claiming this
                       information was proprietary. CSC did share summary
                       information on the vendor proposals with select high-level
                       IRS executives in early 2002.


                       4
                         The CSC heads an alliance of leading technology companies to assist
                       with the IRS’ efforts to modernize its computer systems and related
                       information technology.
                                                                                      Page 8
Business Cases for Information Technology Projects Need Improvement

                       Further, the IFS project team stated that, initially, the CSC
                       had a contract requirement to deliver a package evaluation
                       and selection report that included cost information on all
                       alternatives. This requirement was removed in
                       February 2002.
                       The IRS Enterprise Life Cycle (ELC)5 methodology states a
                       package evaluation report for COTS software products will
                       report the results of package selection and include
                       information on vendors contacted. The CSC and the IRS
                       did comply with the ELC. The CSC provided the IRS with
                       cost and additional information on the winning vendor and
                       summary information on the other vendors who submitted
                       proposals.
                       We believe the ELC requirements are not adequate on this
                       issue. If the IRS does not require contractors, such as the
                       CSC, to provide cost and other relevant information on
                       proposals from all vendors, it cannot ensure the Federal
                       Government’s interests are being protected in these
                       selections. Also, it will not be able to provide the OMB
                       with information it needs to ensure the IRS is making
                       prudent investment decisions.
                       The second obstacle encountered for the IFS project was
                       the IRS Exhibit 300 Business Case Guide does not follow
                       OMB guidance and could encourage nonviable alternatives
                       to be reported. OMB guidance requires agencies to identify
                       all viable alternatives and then select and report details
                       on the top three viable alternatives. In contrast, the IRS
                       Exhibit 300 Business Case Guide specifies the first of three
                       alternatives will be to do nothing.
                       The IRS did not conduct a cost-benefit analysis for
                       the CAP
                       As part of the Alternatives Analysis, the business case must
                       provide an analysis of the costs and benefits expected from
                       the project. The OMB allows Federal Government agencies
                       to use a cost-effectiveness approach, rather than a
                       cost-benefit analysis, to justify an investment in a new

                       5
                         The ELC establishes a set of repeatable processes and a system of
                       reviews, checkpoints, and milestones that reduce the risks of system
                       development and ensure alignment with the overall business strategy.
                       All IRS and contractor personnel involved in modernization are required
                       to follow the ELC.
                                                                                      Page 9
Business Cases for Information Technology Projects Need Improvement

                       computer system when the new system is intended to satisfy
                       a legislative mandate. A project that is justified by cost
                       effectiveness would not need to show the same level of
                       monetary benefits (i.e., benefits that exceed costs). Other
                       nonmonetary benefits, such as improved mission
                       performance or increased quality, speed, and flexibility,
                       may play a more important role in justifying the investment.
                       The IRS did not calculate the net present value (NPV),6
                       return on investment (ROI),7 or other cost-benefit indicators
                       for the CAP, citing the cost-effectiveness approach. The
                       Government Accountability Office (GAO) supported the
                       IRS’ decision to proceed without conducting a cost-benefit
                       analysis.
                       At the time of the GAO decision, the total estimated CAP
                       project cost over a 10-year life was approximately
                       $150 million. A more recent estimate is the CAP project
                       will cost $367 million over its first 10 years. It is not clear
                       whether the Congress and the GAO would have approved a
                       cost-effectiveness justification for the CAP at the current
                       estimated cost. However, since the IRS has cited the
                       cost-effectiveness approach for the CAP on every business
                       case since 2001, we are not making any specific
                       recommendations on this issue.
                       For future IT investments, we suggest the IRS use the
                       cost-effectiveness approach only in rare circumstances. A
                       cost-benefit analysis is a central provision of the
                       Clinger-Cohen Act. This analysis documents the locations
                       and areas where cost savings can be achieved after a system
                       is deployed. OMB Circular A-94, Guidelines and Discount
                       Rates for Benefit-Cost Analysis of Federal Programs (dated
                       October 29, 1992) states, while cost-benefit indicators are
                       not always computable, efforts to measure them can produce
                       useful insights even when the monetary values of some
                       benefits or costs cannot be determined. The OMB
                       requirements emphasize quantifying benefits and costs is
                       worthwhile, even when it is not feasible to assign monetary
                       values.

                       6
                         NPV is a capital budgeting method that considers all discounted cash
                       flows throughout the life cycle of projects, allowing management to
                       identify projects that have the greatest monetary returns.
                       7
                         ROI is a measure that indicates the number of dollars saved from each
                       dollar spent.
                                                                                     Page 10
           Business Cases for Information Technology Projects Need Improvement

                                   Recommendations
                                   The CIO should:
                                   3. Modify the ELC to require a comprehensive package
                                      evaluation and selection report, including costs, on all
                                      COTS software products that are considered for new
                                      IRS systems.
                                   Management Response: The Associate CIO, BSM,
                                   implemented a revised ELC directive that was signed on
                                   August 24, 2004. The directive states an evaluation and
                                   selection report, including costs on all COTS products that
                                   are considered for new IRS systems, is a mandatory delivery
                                   requirement at milestones II and III.
                                   4. Revise the Exhibit 300 Business Case Guide to require
                                      the three best viable alternatives be presented in the
                                      business case. In cases where authoritative guidance
                                      directs that COTS software products be used, three
                                      COTS software alternatives should be compared in the
                                      Alternatives Analysis.
                                   Management Response: The Director, CPIC, modified the
                                   Exhibit 300 Guide on February 1, 2005. This guide was
                                   modified to require that for Development, Modernization,
                                   and Enhancement investments the three best viable
                                   alternatives be presented in the business case.

Progress on Development Projects   EVM data in the CAP and IFS business cases were
Was Measured Inaccurately          incomplete, inaccurate, and outdated. EVM is a method of
                                   analysis that provides management with an objective
                                   measurement of how well an IT investment in the
                                   development stage is progressing in terms of planned costs
                                   and schedule. Earned value compares the work the project
                                   team has finished so far with the estimates made at the
                                   beginning of the project. If budget and schedule variances
                                   are not properly tracked, underlying problems may not be
                                   promptly discovered and addressed by management. The
                                   OMB requires agencies to use an industry-compliant EVM




                                                                                         Page 11
Business Cases for Information Technology Projects Need Improvement

                       system8 to obtain specific timely information on the
                       progress of investments.
                       We identified multiple problems in the EVM sections of the
                       two development project business cases we reviewed. The
                       IRS did not adequately review the business cases and data
                       provided by contractors.
                       The Budgeted Cost of Work Scheduled (BCWS)9 was
                       inaccurate for both the CAP and IFS projects
                       The CAP BY 2005 business case reported the budgeted
                       costs for the project as $77.5 million. Based on the limited
                       amount of documentation provided to us by the IRS, we
                       determined the budgeted costs should have been
                       $46.7 million.
                       The IRS made five separate errors in its calculation of the
                       budgeted costs for the CAP. Specifically, the IRS:
                           •   Double-counted $87.1 million in planned costs.
                           •   Did not account for Infrastructure Shared
                               Services (ISS)10 costs.
                           •   Multiplied the BCWS by a Performance Cost
                               Index (PCI)11 ratio.
                           •   Calculated the BCWS using a percentage complete
                               factor. The percentage of the work completed
                               should be used to calculate the Budgeted Cost of
                               Work Performed, not the BCWS.
                           •   Did not use a work breakdown structure to calculate
                               the BCWS. The work breakdown structure is a key
                               support document needed to calculate the BCWS.



                       8
                         The OMB requires EVM systems to comply with the American
                       National Standards Institute (ANSI)/Electronic Industries Alliance
                       (EIA) Standard 748-1998, Earned Value Management Systems,
                       approved May 19, 1998, and reaffirmed August 28, 2002.
                       9
                         The BCWS is an earned value term for the planned costs at a given
                       point in time. The BCWS affects the calculation of other earned value
                       metrics.
                       10
                          The ISS is a critical building block of the IRS computer
                       modernization effort. The ISS program is being developed to provide a
                       standard data processing environment on which the IRS business
                       computers will be operated.
                       11
                          PCI is an earned value term for the ratio of budgeted cost to actual
                       cost of work performed.
                                                                                      Page 12
Business Cases for Information Technology Projects Need Improvement

                       Additionally, the IFS BY 2005 business case reported the
                       planned costs for the project as $58.1 million. Based on
                       limited information provided to us by the IRS, the costs
                       should have been $111.8 million.
                       Original baseline budget information changed from
                       1 year to the next for both the CAP and IFS
                       The original baseline represents the approved cost, schedule,
                       and performance goals from the first time a project goes
                       through the Federal budget process. The original baseline
                       information should never change, so progress can be
                       measured in future years.
                       The baseline budget estimates were reported inaccurately
                       in both the CAP and IFS projects’ BY 2006 business cases.
                       In its BY 2006 business case, the CAP project changed its
                       original baseline in four separate areas. For example, the
                       BY 2005 business case reported its baseline for the total
                       costs of major components to be $8.4 million and
                       completion to be November 29, 2000. However, the
                       BY 2006 business case shows the baseline costs as
                       $16.2 million and the completion date as
                       November 30, 2004.
                       Baseline budget estimates for the IFS project were reduced
                       from $247 million in 2005 to $227 million in 2006 because
                       $20 million in costs were inadvertently omitted.
                       The CAP and IFS project teams could not provide
                       supporting documentation for much of the EVM data
                       The CAP and IFS project teams could not provide
                       supporting documentation for EVM data reported in the
                       BYs 2005 and 2006 business cases. Furthermore, IRS
                       officials assigned to the project teams could not explain how
                       EVM numbers were calculated. They referred us to
                       contractors and other IRS employees for explanations of the
                       calculations. For BY 2005, EVM data for both business
                       cases were completed by a contractor who is no longer
                       assigned to the IRS and an IRS employee who was not
                       available during our review. OMB guidance requires the
                       retention of supporting documentation to permit review and
                       verification of key management reports.



                                                                            Page 13
Business Cases for Information Technology Projects Need Improvement

                       Earned value data were not updated before submission
                       to the OMB
                       Business cases are officially submitted to the OMB twice
                       yearly. In making critical oversight and funding decisions,
                       the OMB needs to have the most recent data possible.
                       Earned value data reported in the CAP and IFS projects’
                       BY 2005 business cases were out of date when this
                       information was submitted in November 2003. CAP and
                       IFS project data were dated February 28, 2003, and
                       May 30, 2003, respectively. This information should have
                       been calculated as of October 31, 2003. Based on
                       information available at the time of our review, we could
                       not determine if business case data would have been
                       significantly different if they had been correctly reported.
                       Cost data were reported inconsistently between sections
                       of the same business case
                       The Summary of Spending table, Alternatives Analysis, and
                       EVM sections all serve different purposes, but they often
                       require the same cost information. Information should be
                       reported consistently among the sections of a business case.
                       IRS guidance also states information in these sections
                       should match.
                       In the CAP BY 2005 business case, the EVM section
                       indicates the IRS will spend $286 million through
                       September 30, 2006, while the Summary of Spending table
                       indicates $314 million for the same period, a $28 million
                       difference. The difference was due to IRS labor costs being
                       omitted from the EVM section.
                       In addition, IRS labor costs for the CAP Alternatives
                       Analysis and the Summary of Spending table did not agree.
                       The Alternatives Analysis section reported $21.5 million in
                       IRS labor costs, while the Summary of Spending table
                       reported $52 million for the same period, a $30.5 million
                       difference.
                       The IFS BY 2005 business case had similar discrepancies.
                       Specifically, the EVM section omitted about $35 million in
                       IRS labor costs that had been included in the Summary
                       Spending table.



                                                                             Page 14
Business Cases for Information Technology Projects Need Improvement

                       The IRS could not verify contractor EVM systems were
                       compliant with industry standards
                       The OMB requires agencies to demonstrate and explain the
                       process they use to verify their contractors’ project
                       management systems follow the current industry standard.
                       The IRS did not comply with this requirement.
                       The IRS could not verify contractor or IRS EVM systems
                       were compliant with industry standards12 at the time the IRS
                       submitted its business cases. The CAP project BY 2005
                       business case reported the IRS would review its contractor’s
                       EVM system to ensure compliance with the industry
                       standard. However, the IRS did not follow through and
                       perform this review. The CAP project BY 2006 business
                       case reported the contractor’s EVM system complied with
                       industry standards. However, we were not provided with
                       any documentation to support that statement.
                       For the IFS, the IRS had undertaken efforts to ensure
                       contractor compliance with standards. The IRS had
                       identified several instances of contractor noncompliance
                       that had not been corrected at the time BY 2005 data were
                       submitted. This information was not disclosed in the IFS
                       project BY 2005 business case.
                       The Department of the Treasury (Treasury) ProSight
                       Portfolios (ProSight) system contributed to inaccuracies
                       in business cases
                       A problem was identified in the Treasury’s ProSight
                       application that contributed to inaccuracies in the EVM
                       section of the IRS’ business cases. The Treasury required
                       bureaus to use the ProSight application to report business
                       case information effective for the BY 2006 submission.
                       Information was due to the Treasury in August 2004. At
                       that time, Treasury officials noticed some data in business
                       cases were inaccurate. Following our discussion with
                       Treasury officials regarding the cause of the error, they
                       reported the problem to the OMB to ensure the OMB was
                       aware of it.



                       12
                         The applicable industry standard is ANSI/EIA Standard 748-1998,
                       Earned Value Management Systems, approved May 19, 1998, and
                       reaffirmed on August 28, 2002.
                                                                                  Page 15
Business Cases for Information Technology Projects Need Improvement

                       The problem occurred only when projects had already
                       changed their budget at least once and were proposing an
                       additional budget change. For such projects, one table
                       compared actual costs to proposed budget data. The table
                       should have been comparing actual costs to current
                       OMB-approved budget data.
                       As a result, earned value data were inaccurate and could not
                       be relied upon to make management decisions. While this
                       error affected only those projects requesting more than one
                       budget change from the OMB, such projects are the ones
                       likely to be experiencing prolonged difficulties with budget
                       and schedule overruns. Therefore, it is even more important
                       that the EVM data for these projects be stated correctly.
                       Recommendations
                       The CIO should:
                       5. Hold Project Managers accountable to ensure all
                          sections of the business case are consistent, accurate,
                          complete (including IRS overhead and IRS labor costs),
                          and supported by documentation.
                       Management Response: The CIO has designated Project
                       Managers in BSD and BSM offices as the individuals
                       accountable for all data contained in their business cases,
                       including all costs. The CPIC office will also provide
                       training and guidance documents as appropriate.
                       6. Correct all software problems that lead to incorrect
                          earned value calculations so accurate cost and schedule
                          variance information is provided. Accurate cost and
                          schedule variance calculations and metrics, as required
                          by the OMB, should be included elsewhere in the EVM
                          section.
                       Management Response: The Director, CPIC office, will
                       work with the necessary parties to cause a permanent
                       change to correct EVM modeling in the application software
                       used for data reporting in the FY 2008 business cases. In
                       addition, the IRS will prepare a manual temporary work
                       around for EVM calculations in the FY 2007 business cases.




                                                                             Page 16
           Business Cases for Information Technology Projects Need Improvement

                                  The E-Government Act of 200213 requires a comprehensive
Business Cases for Operational
                                  review and analysis to be performed on legacy systems and
Projects Did Not Demonstrate
                                  IT investments to identify strategies for smarter and more
Results of an In-depth
                                  cost-effective methods of delivering performance. The
E-Government Review
                                  CPIC office has affirmed the need for all IT investments to
                                  undergo an E-Government review.
                                  The business cases for the two operational projects we
                                  reviewed, the ISRP and the CASE, did not demonstrate an
                                  in-depth E-Government review was conducted. As a result,
                                  important information that could help management improve
                                  performance may not be considered. Opportunities to share
                                  hardware or software, use emerging technology, and provide
                                  better service to the public and other Federal Government
                                  agencies may not be identified.
                                  IRS guidance for conducting E-Government reviews was
                                  not adequate. The IRS required projects to conduct an
                                  operational analysis that addressed a project’s performance
                                  in three areas: budget and milestones, requirements, and
                                  customer expectations and needs. The CPIC office staff
                                  stated these were the only elements required to be reported
                                  on the business case for operating projects.
                                  In addition to this information, the OMB requires:
                                       •   A review of the current way of doing business and
                                           performing the function, aimed at identifying
                                           improvements and cost savings.
                                       •   A recent alternatives analysis performed with a
                                           future focus.
                                  The ISRP system and CASE project business cases did not
                                  go beyond answering the basic questions identified in the
                                  IRS guidance. Consequently, important information
                                  affecting project performance was not analyzed or reported.
                                  For example, the ISRP system business case projected an
                                  increase in operational costs of about $5 million over the
                                  next 6 years. The ISRP system, which is used to process
                                  paper-based taxpayer documents, should experience a


                                  13
                                    Pub. L. No. 107-347. The Act requires a review of IT systems to
                                  ensure effective and efficient delivery of electronic services and
                                  processes. The business case is used as one way of reporting on
                                  E-Government progress.
                                                                                                Page 17
Business Cases for Information Technology Projects Need Improvement

                       declining workload over time, as more and more taxpayers
                       file electronically. In the next 6 years, the IRS estimates the
                       annual number of paper returns will decrease from
                       72.5 million in Fiscal Year 2004 to 51.5 million in Fiscal
                       Year 2010. This trend was not reflected in the ISRP system
                       operational analysis.
                       Recommendation
                       The CIO should:
                       7. Require the Project Managers of operational systems to
                          document the results of their E-Government reviews in
                          their projects’ business cases.
                       Management Response: Management agreed with our
                       recommendation but in their response took the position that
                       E-Government reviews are not required for existing projects
                       that are scheduled for replacement by modernization
                       projects, and stated the OMB approved this position. For
                       operational projects not scheduled for replacement by a
                       modernization project, the CPIC team will provide training
                       and guidance on how to conduct an E-Government review
                       and analysis. Project Managers will be required to report
                       the results of the E-Government review in their business
                       cases.
                       Office of Audit Comment: We disagree with management’s
                       position that E-Government reviews are not required for
                       projects that have been scheduled for replacement by
                       modernization projects. Since the IRS modernization
                       efforts are scheduled to be implemented over several years,
                       we believe the IRS could have many opportunities to
                       improve the efficiency of existing projects before they are
                       modernized. We found no documentation that the OMB
                       had approved the IRS’ position. We will revisit this issue in
                       our audit of the BY 2007 submission. During the follow-up
                       review, we will also evaluate management’s progress in
                       developing E-Government reviews for those projects not
                       scheduled for replacement by modernization projects.




                                                                              Page 18
          Business Cases for Information Technology Projects Need Improvement

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) is planning, managing, and controlling its information technology (IT) investments in
compliance with the Office of Management and Budget (OMB) and Clinger-Cohen Act of 19961
requirements. To accomplish this objective, we:
I.    Judgmentally selected 4 of 30 IT investments; 2 were development projects and 2 were
      classified as operational. The two development projects were the Custodial Accounting
      Project and the Integrated Financial System. The two operational projects were the
      Integrated Submission and Remittance Processing system and the Counsel Automated
      Systems Environment (see Appendix VI for a description of these projects). We selected
      these four projects to avoid duplicating the work of other Treasury Inspector General for
      Tax Administration audit groups and based on the significant funds expended by the IRS
      on these projects.
II.   For these four projects, reviewed the OMB Circular A-11 Exhibit 300, Capital Asset Plan
      and Business Case, prepared by the IRS prior to authorizing the IT investments and
      determined whether the business cases conformed to the OMB business case2 requirements.
      A. Reviewed OMB Circular A-11 Exhibit 300 and consulted with the OMB and
         Department of the Treasury to determine the requirements for an agency to be in
         compliance.
      B. Obtained the Budget Years (BY)3 2004 and 2005 business cases, reviewed the OMB
         comments and concerns, and determined whether the IRS addressed them.
      C. Evaluated the BYs 2005 and 2006 budget submissions to the OMB and determined
         whether the business cases were completed in compliance with OMB requirements.




1
  Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
2
  OMB Circular A-11, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital Assets.
3
  “Budget Year” refers to a future fiscal year (October 1 – September 30) which is the subject of the budget planning
process.




                                                                                                             Page 19
         Business Cases for Information Technology Projects Need Improvement

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program)
Stephen R. Mullins, Director
Thomas Polsfoot, Audit Manager
W. Allen Gray, Senior Auditor
Mary L. Jankowski, Senior Auditor
Jody Kitazono, Senior Auditor
Thomas Nacinovich, Senior Auditor




                                                                                        Page 20
        Business Cases for Information Technology Projects Need Improvement

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Acting Chief, Security Services OS:CIO:S
Director, Financial Management Services OS:CIO:FM
Acting Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Information Officer OS:CIO




                                                                                    Page 21
              Business Cases for Information Technology Projects Need Improvement

                                                                                                      Appendix IV


                                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
       Reliability of Information – Potential; $133.6 million. Project costs were not reported
        accurately (see page 4). The inaccurate estimates and the misstated costs hindered the
        ability of decision-makers to rely on the business cases to allocate funds or use the
        information as a management tool. Reliability of Information outcome measures are
        reported on an absolute basis; i.e., both overestimated and underestimated amounts are
        reported as positive amounts.
Methodology Used to Measure the Reported Benefit:
1. Overhead Costs: Budget Year (BY)1 2005 costs not allocated
   to projects; project costs were underestimated (see page 5).                                  $79.4 million
2. Security infrastructure costs were inaccurate (see page 5).                                   $11.2 million
3. Integrated Submission and Remittance Processing costs
   were understated (see page 6).
        a) BY 2005 labor costs were understated                                                  $38.5 million
        b) BY 2006 hardware and software costs                                                    $4.5 million
Total                                                                                          $133.6 million
Type and Value of Outcome Measure:
       Reliability of Information – Potential; $205.8 million. Budget and schedule variances were
        not properly tracked and underlying problems may not be promptly discovered and
        addressed by management (see page 11).
Methodology Used to Measure the Reported Benefit:
1. Budgeted cost of work inaccurate.




1
    BY refers to a future fiscal year (October 1 – September 30) which is the subject of the budget planning process.
                                                                                                               Page 22
           Business Cases for Information Technology Projects Need Improvement

    a) Custodial Accounting Project (CAP) BY 2005 business case (see page 12).
        i) Reported                                                   $77.5 million
        ii) Treasury Inspector General for
            Tax Administration (TIGTA) determination                  $46.7 million
        iii) Difference                                                                     $30.8 million
    b) Integrated Financial System (IFS) BY 2005 business case (see page 13).
        i) Reported                                                   $58.1 million
        ii) TIGTA determination                                      $111.8 million
        iii) Difference                                                                     $53.7 million
2. Baseline budget information changed.
    a) CAP baseline for major components (used this as an example) (see page 13).
        i) BY 2005 business cases                                      $8.4 million
        ii) BY 2006 business cases                                    $16.2 million
        iii) Difference                                                                       $7.8 million
    b) IFS baseline budget estimates (see page 13).
        i) BY 2005                                                     $247 million
        ii) BY 2006                                                    $227 million
        iii) Difference                                                                     $20.0 million
3. Inaccurate reporting between sections of the same business case.
    a) CAP BY 2005 business case through September 30, 2006 (see page 14).
        i) Earned Value Management2 (EVM)                              $286 million
        ii) Summary of Spending Table                                  $314 million
        iii) Difference                                                                     $28.0 million
    b) CAP – Internal Revenue Service labor costs (see page 14).
        i) Alternatives Analysis                                      $21.5 million
        ii) Summary of Spending                                       $52.0 million
        iii) Difference                                                                     $30.5 million




2
  Earned value compares the work that has been completed on a project to date with the estimates that were made at
the beginning of the project. This gives management information to measure how far a project is from completion.
                                                                                                          Page 23
         Business Cases for Information Technology Projects Need Improvement

   c) IFS BY 2005 business cases
        i) Amount not shown in EVM included in the
           Summary of Spending Table                               $35.0 million
Total                                                             $205.8 million
Grand Total ($133.6 million plus $205.8 million)                  $339.4 million




                                                                               Page 24
            Business Cases for Information Technology Projects Need Improvement

                                                                                                Appendix V


                            Summary of Business Case Deficiencies

Tables 1 and 2 below present a summary of the Budget Year 2005 and 2006 business case
deficiencies for the development and operational projects we reviewed.

                         Table 1: Business Case Deficiencies for Development Projects

                                                              Custodial                  Integrated
                                                          Accounting Project          Financial System
           Business Case Deficiencies
                                                           2005           2006         2005         2006

    Allocation of Management and Overhead                     ■                          ■
               Costs Inaccuracies1

            Security Costs Inaccurate                         ■             ■            ■            ■

        Alternatives Analysis Insufficient                                               ■            ■

       Cost/Benefit Analysis Not Prepared                     ■             ■

        Earned Value Metrics Inaccurate                       ■             ■            ■            ■

    No Supporting Documentation for Earned                    ■             ■            ■            ■
        Value Management (EVM) Data

               EVM Data Outdated1                             ■                          ■

              Cost Data Inconsistent1                         ■                          ■

     Earned Value Systems Not Compliant                       ■             ■            ■            ■
1
    We did not evaluate these items for Budget Year 2006 due to time constraints.

Source: Treasury Inspector General for Tax Administration’s (TIGTA) analysis of business cases and supporting
documentation.




                                                                                                       Page 25
             Business Cases for Information Technology Projects Need Improvement

                          Table 2: Business Case Deficiencies for Operational Projects

                                                             Integrated                    Counsel
                                                           Submission and                 Automated
           Business Case Deficiencies                        Remittance                    Systems
                                                             Processing                  Environment

                                                           2005            2006          2005   2006

      Direct Labor, Hardware and Software                                   ■
                 Costs Omitted

            Security Costs Inaccurate1                        ■

     Results of E-Government Review Not                       ■             ■             ■       ■
                 Demonstrated
1
    We did not evaluate this item for Budget Year 2006 due to time constraints.

Source: TIGTA’s analysis of business cases and supporting documentation.




                                                                                                  Page 26
           Business Cases for Information Technology Projects Need Improvement

                                                                                                 Appendix VI


      Description of Information Technology Investments Selected for Review

Counsel Automated Systems Environment (CASE)
The CASE is a collection of office automation tools, customized computer programs, hardware
and software, and staff dedicated to support the ongoing maintenance of the CASE. The Internal
Revenue Service (IRS) Office of Chief Counsel uses the CASE to provide IRS attorneys with a
case tracking and management system.
Custodial Accounting Project (CAP)
The CAP is planned to provide a single, integrated data repository of taxpayer account
information, integrated with the general ledger and accessible for management analysis and
reporting. The CAP will allow the IRS to generate timely, reliable financial reports and other
financial information that the Congress and IRS management need to oversee and manage the
agency. The project will solve several internal management problems.
Currently, the IRS’ financial systems environment is a collection of information systems that
provide limited functionality and are time-consuming to use, expensive to maintain, and not
compliant with Federal financial law and regulation in several areas. Additionally, the systems
have a high cost of ownership, constrain the quality of service, and provide little information to
support improvement in financial business operations or managerial decision making.
Integrated Financial System (IFS)
The IFS will replace multiple steady state1 financial systems with a single, integrated commercial
off-the-shelf Enterprise Resource Planning software package that will comply with all Federal
laws and accounting standards and rules. The IFS will enable the IRS to integrate the majority of
its financial processes, share common data and practices across the entire organization, and
produce and access information in a real-time environment. The IFS will help the IRS face
several challenges in its internal management operations.
Integrated Submission and Remittance Processing (ISRP) System
The ISRP system is a mission critical, steady state system that provides both individual and
business taxpayers a method to file paper tax returns, provides a method to process remittances
received from taxpayers, and allows the IRS to process various tax forms at nine Submission
Processing2 sites throughout the country. Many individuals still choose to file paper tax returns.
Currently, approximately 72.5 million (55 percent) of all individual returns are filed by paper.
The IRS uses the ISRP system to process this massive volume of paper.


1
 Projects in the operational stage are also called steady state projects.
2
 Submission Processing is responsible for processing tax returns, related documents, and payments in accordance
with laws and regulations.
                                                                                                         Page 27
Business Cases for Information Technology Projects Need Improvement

                                                             Appendix VII


          Management’s Response to the Draft Report




                                                                      Page 28
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 29
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 30
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 31
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 32
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 33
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 34
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 35
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 36
Business Cases for Information Technology Projects Need Improvement




                                                                      Page 37
